No. 20-5531

IN THE SUPREME COURT OF THE
UNITED STATES

C. Holmes
Petitioner,

v.
James Y. Becker, M. M. Caskey,
Mikell R. Scarborough, and
Haynsworth Sinkler Boyd, PA,
as successor to Sinkler & Boyd, PA,
Respondents,

REPLY TO BRIEF IN OPPOSITION
TO PETITION FOR A WRIT OF CERTIORARI

C. Holmes
P.O. Box 187
Sullivans Island, SC 29482
843.883.3010

received
OCT 16 2020

TABLE OF CONTENTS

Table of Authorities

IX

Reply to Statement of the Case

1

Reply to Brief in Opposition

9

Conclusion

14

TABLE OF AUTHORITIES
CASES

Brooks v. SCCOID and OID, 797 S.E.2d 402
7

(SC Ct. App. 2017)
Burnham v. Superior Court of California, Cty. ofMarin, 495
U.S. 604, 609, 110 S.Ct. 2105, 109 L.Ed.2d 631 (1990)

10

Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402 (1990)

6

Dennis v. Sparks, 449 U.S. 24, 28-29 (1980)

1

Doe v. Duncan (unpublished).

6

ExxonMobil Corp. v. Saudi Basic Industries
Corp., 544 U.S. 280 (2005)

11

Garner v. Houck, 312 S.C. 481, 435 S.E.2d 847 (1993)

7

Hanahan v. Simpson, 326 S.C. 140, 485 S.E.2d 903 (1997)

7

Holmes v. Becker, Grier, Haynsworth Sinkler Boyd, PA,
6,7

760 S.E.2d 399 (S.C. 2014)
Holmes v. ECCH, Inc., 758 S.E.2d 483 (2014)

6

Hulsey v. Cisa, 947 F.3d 246 (4th Cir., January 17, 2020)

9,12

Innovative Waste Mgmt. Inc. v. Crest Energy Partners GP,
LLC, 815 S.E.2d 780 (S.C. App. 2018)

10

u

Jordahlv. Democratic Party of Va., 122 F.3d 192, 202
(4th Cir.1997)

13

Lance v. Dennis, 546 U.S. 459 (2006)

11

Lyles v. Bolles, 8 S.C. 258 (1876)

10

Bose v. Himely, 8 U.S. 4 Cranch 241, 268-69,
2 L.Ed. 608 (1808) (Marshall, C.J.)

10

Skinner v. Switzer, 562 U.S. 521, 531, 131 S.Ct. 1289,
11

179 L.Ed.2d 233 (2011)
Thana v. Bd. ofLicense Comm'rs for Charles Cnty.,
827 F.3d 314 (4th Cir., 2016)

11

Unisun Ins. v. Hawkins, 537 S.E.2d 559 (Ct.App.2000)

7

Washington v. Wilmore, 407 F.3d 274 (4th Cir., 2005)

13

STATUTES AND RULES

S.C. Code Ann.(sic) § 15-11-10

1

S.C. Code Ann.(sic) § 15-11-15

1

S.C. Code Ann.(sic) § 14-11-15

1

S.C. Code § 14-11-310

3,8

S.C. Code § 15-36-10 (M)

4,6

SCACR, Rule 268(d)(2)

7,12

SCRCP, Rule 43(1)

9

SCRCP, Rule 60

2

REPLY TO STATEMENT OF THE CASE

As a threshold matter, without being disagreeable, there is disagreement and
petitioner disputes Mr. Andrew Lindemann’s Statement of the Case which omits material
facts and makes material misstatements of fact. On page 1, Mr. Lindemann falsely claims
S.C. Code Ann.(sic) § 15-11-10 contains a provision that states, “A Master-in-Equity is a
part of the unified state court system in South Carolina.” It does not. Furthermore, “S,C.
Code Ann.” is considered antiquated and/or obsolete. Moreover, a master-in-equity
(hereafter MOE) is not the equivalent of a state circuit court judge and S.C. Code Ann.
(sic) § 15-11-15 does not state that MOE is the equivalent. In fact, S.C. Code Ann.(sic) §
15-11-15 does not exist. To the extent he attempts to cite “S.C. Code Ann.(sic) § 14-11-15,”
Mr. Lindemann misrepresents the quotation, which is taken out of context and which is
incomplete. Mr. Lindemann materially omits the final sentence which negates the
statement^ MOE is the equivalent of a state court circuit judge. That final sentence
definitively delineates MOE is NOT a judge, may not be construed to be a judge, and
MOE’s are prohibited from participating in the State Retirement System for Judges.
On page 1 in the second paragraph, petitioner disputes the second sentence and
Mr. Lindemann’s attempt to limit and mischaracterize the complaint. Instead, the
allegations assert claims including conspiracy by defendants all in concert under color of
state law to deny petitioner’s constitutional, individual, and property rights for the
benefit of private parties to fix the outcome of the case. In Dennis v. Sparks, 449 U.S. 24,
28-29 (1980), the U.S. Supreme Court held that private parties who conspired with a
1

judge to fix a case acted under color of law.
In Footnote 1 on page 1, Mr. Lindemann misrepresents the February 9, 2017, MOE
order is “sua sponte.” Specifically, the attached February 9, 2017, MOE order states “This
action came to trial or hearing before the court. The issues have been tried or heard and a
decision rendered.” Black’s Law Dictionary, 2d Edition, provides the following definition
for “ex parte”: Court order against a party absent from the proceedings and given no
prior notice. The Charleston County public access website for Case No. 2007-CP-10-1444
shows there was no prior notice for the hearing referenced in the order and no
opportunity to be heard. “Sua sponte” is not the proper term.
On page 2 at the top of the page, Mr. Lindemann materially omits the
referee/master lacked jurisdiction to strike the Rule 60, SCRCP, motion then pending
before the trial judge who is the only judge with jurisdiction to hear the Rule 60, SCRCP,
Motion. Moreover, disposition on that Rule 60, SCRCP, Motion is a condition precedent to
supplemental proceedings and a condition precedent to jurisdiction for the order of
reference. Without it, the order of reference is invalid. Even assuming the order of
reference is valid, which is denied, only the trial judge has jurisdiction for disposition of
the pending Rule 60, SCRCP, Motion and MOE is not the trial judge. Further, the
referee/master lacked jurisdiction to strike the MTD then pending before the Presiding
Circuit Court Judge. Mr. Lindemann materially omits that his client
confiscated/converted petitioner’s monies paid in good faith for filing fees while giving a
“free pass” to defendant corporation on jurisdictional full payment of filing fees. This non­
judicial wrongdoing speaks volumes. MOE did not require full payment of filing fees from
defendant corporation which is an administrative, non-judicial act of wrongdoing and
2

prejudicial bias. MOE did not require full payment of filing fees from defendant
corporation which every other attorney is required to pay and which is required for
statutory authority:

S.C. CODE SECTION 14-11-310.
Masters-in-equity to collect certain fees.

Masters-in-equity shall collect the following fees which must be deposited in the general
fund of the county:
...(4) for a supplemental proceeding, a fee of twenty-five dollars;...
The fees provided for in this section, including the first day's fee provided for in item (5)
and excluding the commission on sale, must be paid at the time the order of reference is
signed and is nonrefundable unless so ordered by the master-in-equity on proper cause
being shown. S.C. Code § 14-11-310 (emphasis supplied).

On page 2 in the first complete paragraph, Mr. Lindemann fails to disclose S.C.
Code § 14-11-310 provides that a salaried employee of defendant corporation is not
entitled to attorney’s fees. As such, the $2500 order for attorneys fees for employee
Caskey is a violation of S.C. Code § 14-11-310. Moreover, the transcript reflects the
petitioner timely complied with discovery in the courtroom on the record, it reflects
defendant corporation failed to provide admissible evidence of non-compliance, and it
reflects the petitioner was not allowed to testify, to present evidence, or to call witnesses.
On page 2 in the last full paragraph, Mr. Lindemann states, “The district court
further ruled that ‘it is clear that Scarborough issued the orders in question in his
judicial capacity and not in the absence of jurisdiction, as they were made pursuant to
orders of reference from the circuit court (emphasis supplied).’” Importantly, the district
3

court failed to address the validity of the orders of reference. By inference, at least one of
those “orders” is invalid and plaintiff contends both are. Summary dismissal is improper
under these facts with multiple (invalid) “orders” of reference.
With regard to fn. 2 on page 3, petitioner retired from the practice of law with
Neighborhood Legal Aid before attending medical school and there have never been any
client complaints. But for the unconstitutional retroactive application of the inapplicable
revised FPA, S.C. Code § 15-36-10, and unauthorzed reporting to ODC in subsection M
of the FPA while that Haynsworth FPA order was stayed pending appeal, there would be
no complaint to ODC. S.C. Code § 15-36-10(M). Further, there would be no definite
suspension after multiple attempts at improper default by Barbie Seymour, now
removed. But for the unconstituional retroactive application of the revised FPA, we would
not be here. A detailed description by petitioner’s state court Appellate Counsel of Record
may be found at sccourts.org, select C-Track Public Access under Quick Links, select
Court of Appeals (COA), be sure to uncheck “exclude closed cases,” and enter Case No.
2019-000880, then click on the entry date of 04/24/2020 for Petition For Rehearing on
improper dismissal of that appeal. Current appeal by Haynsworth is pending under COA
Case No. 2020-000968 based on the attached state court order dated June 11, 2020.
Currently, Mr. Lindemann contemptuously flouts the attached state court order for
mandatory ADR (Alternative Dispute Resolution) regarding viable state court claims
specified in the R&R, adopted by the district court, and timely filed in state court. ADR
applies to essentially all civil litigants in the unified state court system. As he points out
on page 1, MOE is part of the unified state court system, yet Mr. Lindemann apparently
believes he and MOE, a county (not Judicial Department) employee, are above the law
4

and do not have to comply with state court orders of the unified state court system.
Significantly and materially, the unified state court system is struggling to manage its
docket in these uncertain times of unfolding and unprecedented public health and
affiliated economic emergencies. Public policy mandates compliance with ADR. In
derogation of his professional responsibilities and the South Carolina Rules of
Professional Conduct, Attorney Lindemann cavalierly and contemptuously refuses to
comply with the attached state court order dated July 13, 2020. Attorney Lindemann
could have but did not timely file a motion to reconsider and/or to alter or amend and/or
appeal. He unreasonably fails and refuses his professional responsibility to comply with a
valid court order and refuses to even discuss mediation, contrary to legislative intent and
the letter and spirit of ADR. Importantly, in compliance with that order, deposit was paid
and mediation scheduled for September 18, 2020, or any other mutually agreeable date
and time which Mr. Lindeman contemptuously ignored without providing alternate date.
Turning to fn. 3 on page 3, regarding the first case, see attached Civil Action Cover
Sheet showing Counsel of Record filed the suit and signed at the bottom certifying the
case is not frivolous. Importantly, the dissent in Footnote 23 of the opinion in that case
properly points out that the majority agreed with petitioner’s Counsel of Record that the
case law “might not be [so] limited....” supporting petitioner’s counsel of record and his
theory of the case. Holmes v. ECCH, Inc., 758 S.E.2d 483, fn. 23 (2014). Significantly, in
his dissenting opinion, Former Chief Justice, then Justice Pleicones correctly noted there
was no basis in law for finding the physician violated the FPA and no basis in fact or law
for sanctioning the party alone and not the attorney. Of note, that very issue is scheduled
for oral argument in another case on November 12, 2020, in the state COA under COA
5

App. Case No. 2018-000467.
Regarding the second case in fn. 3 on page 3, the definite suspension in that case
was based on improper default and the above referenced unauthorized sanction against a
represented party while stayed pending appeal in which the majority agreed and the
dissenting opinion found that Counsel of Record’s suit was not frivolous and that a
represented party alone could not be sanctioned. Holmes v. ECCH, Inc., 758 S.E.2d 483,
fn. 23 (2014). As a matter of law in that case, therefore, the reasonable attorney standard
in S.C. Code § 15-36-10 (FPA) as well as a reasonable jurist standard is met. There is no
frivolity. See Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402, 110 S.Ct. 2447, 110
L.Ed.2d 359, 58 USLW 4763 (l990)(the lack of any legal requirement other than the
talismanic recitation of ‘“frivoloul will foreclose meaningful review.” (emphasis
supplied)). The reasonable attorney standard is not fair notice to the general public or to
parties.
Regarding the third case in fn. 3 on page 3, but for the unconstitutional retroactive
application of the revised FPA, we would not be here. The dissent in that case agreed, “I
agree with appellant that the original version of the FCPSA and not the amended version
applies here." Holmes v. Haynsworth et al, 408 S.C. 620, 760 S.E.2d 399 (S.C. 2014).
Further, the trial judge expressly ruled there is no intent to harm. But for the attached
denial of the plaintiffs motion for substitution of counsel in that underlying case of
Haynsworth’s malfeasance, we would not be here. The record reflects that the Presiding
District Court Judge who denied plaintiffs timely and meritorious motion to substitute
counsel did not timely recuse himself in the instant case despite timely notice.
On page 3, Mr. Lindemann again omits material facts. He fails to provide any
6

citation, source, or case number for his reliance on Doe v. Duncan.and materially fails to
disclose it is unpublished. Unpublished orders have no precedential value and should not
be cited except in proceedings in which they are directly involved. Rule 268(d)(2), SCACR.
Even Mr. Lindemann is unable to cite, locate, or access that John Doe order which is
inadmissible untrustworthy hearsay and which supports petitioner’s allegation of direct
or indirect impermissible ex parte communication by defendant corporation and
defendants with MOE, otherwise that unpublished order could not be found. That John
Doe case is unrelated to and not directly involved with the matter herein and in any case,
is not applicable because the physician is in a defensive posture. See Brooks v. SCCID
and OID, South Carolina Court of Appeals, decided February 15, 2017, App. Case No.
2014-002477 (Remittitur sent March 3, 2017). Of note, Former Chief Justice Toal, who at
every opportunity publicly praises Haynsworth for “launching” her career “and the rest is
history,” authored two of the four opinions on page 3 and participated in the other two
Per Curiam.
At the bottom of page 3, Mr. Lindemann materially omits directed verdict was
granted to two of the three defendants on insufficient service in Holmes v. Becker, Grier,
and Haynsworth Sinkler Boyd, PA, 760 S.E.2d 399 (2014), authored by Former Chief
Justice Toal. After the individual defendants appeared, testified, and defended at trial,
the trial judge granted directed verdict on the grounds of insufficient service. Former
Chief Justice, then Justice Pleicones dissented arguing it was against controlling
precedent and well-settled rule of law, which essentially describes the entire majority
opinion^
As I understand the applicable law, however, these respondents waived their right to rely
7

upon the belated service when they failed to raise the issue pursuant to Rule 12(h),
SCRCP. See Garner v. Houck, 312 S.C. 481, 435 S.E.2d 847 (1993). Failure to properly
raise this issue under the rule also operates as a waiver of a statute of limitations
defense. Id.; see also Unisun Ins. v. Hawkins, 342 S.C. 537, 537 S.E.2d 559
(Ct.App.2000)....Further, I agree with appellant that the original version of the FCPSA
and not the amended version applies here. See 2005 S.C. Acts No. 27 § 16(3) 123 (revised
FCPSA applies to causes of action arising on or after July 1, 2005). Thus the trial court
erred as a matter of law in awarding sanctions under the FCPSA. Hanahan v. Simpson,
326 S.C. 140, 485 S.E.2d 903 (1997).
Holmes v. Haynsworth et al., 408 S.C. 620, 760 S.E.2d 399, 413 (S.C. 2014).

In addition, the dissent confirmed the revised FCPSA with its reporting provisions is
inapplicable. S.C. Code § 15-36-10(M).
On page 4, Mr. Lindemann again engages in self-interested omission of material
facts. Specifically, he fails to disclose there was no hearing date issued because statutory
authorization requires full filing fees “must be paid” before the order of reference is
authorize d:

S.C. CODE SECTION 14-11-310.
Masters-in-equity to collect certain fees.

Masters-in-equity shall collect the following fees which must be deposited in the general
fund of the county:
...(4) for a supplemental proceeding, a fee of twenty-five dollars;...
The fees provided for in this section, including the first day's fee provided for in item (5)
and excluding the commission on sale, must be paid at the time the order of reference is
signed and is nonrefundable unless so ordered by the master-in-equity on proper cause
being shown. S.C. Code § 14-11-310 (emphasis supplied).

Thus, by statute the payment of fees is jurisdictional. The record reflects full fees have
not been paid, including but not limited to, the full $50.00 initiation fee: $25 to file the
8

petition with the state circuit court and $25 for MOE. Materially, the record reflects MOE
in his non-judicial and administrative capacity gave Haynsworth a free pass on full
payment. A jury could find this is evidence of administrative wrongdoing in a non-judicial
capacity for which there is no judicial immunity and evidence of prejudicial bias. Further,
Mr. Lindemann fails to disclose there was no hearing date on the order of reference
pending disposition on the plaintiffs pending Motion to Dismiss (MTD). See attached
true copy of incomplete order of reference. Significantly and materially, the MTD was
based on, including but not limited to, lack of standing due to lack of ownership interest
which defendants later admitted in the attached copy of document filed September 29,
2017, as well as false, disputed claims and lack of verified petition which is a fatal defect.
Toyota ofFlorence, Inc. v. Lynch, 314 S.C. 257, 442 S.E.2d 611 (1994). The order of
reference is incomplete and not final. No other judge has jurisdiction to enter, alter, or
revise another judge’s pending matter. Rule 43(1), SCRCP. The attached true copy of the
incomplete order of reference, which is incomplete for jurisdictional lack of full payment.
is not final and to date, full payment has not been made. It is not a final, valid order of
reference, and there is no jurisdiction for MOE or MOE orders under these facts.
On page 4, Mr. Lindemann misconstrues the complaint. It is respectfully
submitted the allegations in the complaint are not so limited. Writ of Certiorari is
respectfully requested.

9

REPLY TO BRIEF IN OPPOSITION

There is conflict in the Fourth Circuit regarding the disparate rulings under the
same or similar fact pattern in Hulsey;this Court is requested to grant review regarding
consistency. Hulsey v. Cisa, 947 F.3d 246 (4th Cir., January 17, 2020). Moreover, the
propriety of adopting Report & Recommendation (R&R) admittedly based on extrajudicial
untrustworthy hearsay over the internet is challenged, including but not limited to,
denial of timely request for notice and opportunity to respond to extrajudicial
communication/content outside the record and/or denial of adequate record for
meaningful judicial review. On page 5, Mr. Lindemann asserts two bases for denying the
petition- absolute judicial immunity and the Rooker-Feldman doctrine. As set forth more
fully herein, neither provides sanctuary for his client.
With respect to absolute judicial immunity, the referee/master is not a state circuit
court judge and does not enjoy absolute judicial immunity. Specifically, he does not enjoy
absolute judicial immunity because, including but not limited to, he does not enjoy
general jurisdiction as does a state circuit court judge and never did. His jurisdiction is
subject to a valid order of reference and only as specified in that order. In this case, there
is no final, valid order of reference, therefore, the referee/master has no lawful judicial
authority, and any actions he took including, but not limited to, judge-shopping for a
second (invalid) order of reference, are outside his scope of authority and constitute non­
judicial wrongdoing:

10

Lyles v. Bolles, 8 S.C. 258 (1876) endorsed the following language- "A sentence professing
on its face to be the sentence of a judicial tribunal, if rendered by a self-constituted body,
or a body not empowered by its government to take cognizance of the subject it had
decided, could have no legal effect whatever." Id. at 262 (quoting Bose v. Himely, 8 U.S. 4
Cranch 241, 268-69, 2 L.Ed. 608 (1808) (Marshall, C.J.)). Both Lyles and Rose used the
traditional term of art, coram non judice," ‘before a person not a judge’—meaning, in
effect, that the proceeding in question was not a judicial proceeding because lawful
judicial authority was not present, and could therefore not yield a judgment." Burnham
v. Superior Court of California, Cty. ofMarin, 495 U.S. 604, 609, 110 S.Ct. 2105, 109
L.Ed.2d 631 (1990).
Innovative Waste Mgmt. Inc. v. Crest Energy Partners GP, LLC, 815 S.E.2d 780 (S.C.
App. 2018).

Accordingly, “because lawful judicial authority was not present, and could therefore not
yield a judgment,” the orders of the referee/master, including the February 9, 2017, order,
“could have no legal effect whatever.” Id.
In addition, even assuming a valid order of reference, which is denied, there is no
judicial immunity for administrative and/or non-judicial wrongdoing in a non-judicial
capacity which plaintiff has pled, such as, including but not limited to, causing
false/misleading information to be published on the Charleston County public access
website on which the district court relied to dismiss summarily. See Footnote 10 on page
9 of the Report & Recommendation (R&R) dated October 31, 2018.
As for the second reason to deny the petition, Mr. Lindemann misconstrues or
misapprehends the Rooker-Feldman (R-F) doctrine. Specifically, the case of Thana v. Bd.
ofLicense Comm'rs for Charles Cnty., 827 F.3d 314 (4th Cir., 2016) provides as follows^
To emphasize the narrow role that the Rooker -Feldman doctrine is to play, the Supreme
Court has noted repeatedly that, since the decisions in Rooker and Feldman, it has never
applied the doctrine to deprive a district court of subject matter jurisdiction. See, e.g.,
Skinner v. Switzer, 562 U.S. 521, 531, 131 S.Ct. 1289, 179 L.Ed.2d 233 (2011); Lance,
546 U.S. at 464, 126 S.Ct. 1198; Exxon, 544 U.S. at 287, 125 S.Ct. 1517 (2005). Similarly,
since Exxon, we have never, in a published opinion, held that a district court lacked
subject matter jurisdiction under the Rooker -Feldman doctrine. ...
11

In the circumstances of this case, we conclude that this federal action is a concurrent,
independent action supported by original jurisdiction conferred by Congress on federal
district courts, even though the complaint in the action includes claims and legal
arguments similar to or the same as those made in the state proceedings, and that
therefore it is not barred by the Rooker-Feldman doctrine.
Thana v. Bd. ofLicense Comm'rs for Charles Cnty., 827 F.3d 314 (4th Cir., 2016).
In addition, the Fourth Circuit has since reversed the Eastern Division of the
District Court of South Carolina based on misapprehension and/or overreach of the
Rooker-Feldman Doctrine. As in the recent Hulsey case, the instant case does not fall
within the Rooker-Feldman doctrine’s narrow scope, for multiple independent reasons
including but not limited to, because the injury herein is caused by defendants all in
concert conspiring to cause harm under color of state law, including by misrepresenting
an unspecified, unpublished order from an unrelated case. Hulsey v. Cisa, 947 F.3d 246
(4th Cir. 2020). Unpublished orders have no precedential value and should not be cited
except in proceedings in which they are directly involved. Rule 268(d)(2), SCACR. That
unpublished John Doe order in an unrelated case is not directly involved in the instant
case. Accordingly, new case law in Hulsey supports reversal. Id.
As noted above, new case law ruled the Rooker-Feldman doctrine is inapplicable
under the same or similar facts. Hulsey v. Cisa, 947 F.3d 246 (4th Cir., January 17,
2020). There is conflict in the Fourth Circuit regarding the disparate rulings under the
same or similar fact pattern in Hulsey,'this Court is requested to grant review regarding
consistency. Id. Plaintiff challenges defendants’ wrongdoing pursuant to the revised
SCFPA and the February 9, 2017, order, copy attached, which defendants admit is
currently pending state court appeal and for which there is no decision by the state court
12

of last resort.
The magistrate dismissed due to the Rooker-Feldman doctrine based on false
evidence admittedly outside the record from the internet which he cited in Footnote 10 on
page 9 of the R&R filed on October 31, 2018. The magistrate relied on false information
regarding a false remittitur wrongfully posted by defendants all in concert on the county
government public website in October 2018. A jury should and would find that the false
remittitur was wrongfully published by defendants all in concert to obtain dismissal
herein. It is evidence consistent with intentional wrongdoing. Discovery is indicated. A
pattern and practice has emerged of defendants’ wrongdoing all in concert to cause entry
of altered/erroneous information on the county government’s public website, under color
of state law to benefit private parties. Serious questions are raised regarding direct or
indirect ex parte communication of false information to the district court over the
internet and outside the record by and through the federal magistrate. Petitioner is
prejudiced by wrongful dismissal and denial of timely request for notice and opportunity
to respond to the magistrate’s unlawful search and solicitation over the internet. Without
defendants’ wrongdoing all in concert the outcome should and would be different.
Even under the now rejected, overly expansive application of the R-F doctrine prior
to Exxon, supra, the facts in this case are consistent with the 1997 4th Circuit case in
Jordahl v. Democratic Party of Va., 122 F.3d 192, 202 (4th Cir.1997). The case herein
does not seek review of a state court decision by the state court of last resort because
there is no decision by the state court of last resort on the February 9, 2017, order
currently pending appeal; instead, the challenge is to the process by which the state court
decisions resulted, which is within the express legislative intent and jurisdiction of the
13

district court.
In Washington v. Wilmore, 407 F.3d 274 (4th Cir., 2005) (after Exxon, supra), the
4th Circuit cited Jordahl v. Democratic Party of Va., 122 F.3d 192, 202 (4th Cir. 1997), and
distinguished between actions seeking review of the state court decisions themselves and
those cases challenging the constitutionality of the process by which the state court
decisions resulted. Similarly, the plaintiffs claims herein rest not on a state court
judgment itself, but rather on challenge to the constitutionality of the process by which
the state court decisions resulted and to the revised SCFPA on its face and/or as applied.
Accordingly, there is no absolute judicial immunity for MOE under these facts and the
Rooker-Feldman doctrine is not applicable. Petitioner respectfully requests Writ of
Certiorari.

CONCLUSION

WHEREFORE, for substantial justice affecting substantial rights, petitioner
respectfully requests that this Court grant the Petition for Writ of Certiorari.

Respectfully submitted,

SI, SC 29482-01
843.883.3010

14

